Audit Report 97-21
CONTROLS OVER FINANCIAL ACTIVITIES
AT THE NATIONAL DRUG INTELLIGENCE CENTER
Audit Report 97-21, (5/97)
TABLE OF CONTENTS
AUDIT RESULTS
INTRODUCTION
FINDINGS AND RECOMMENDATIONS
FINANCIAL AND ADMINISTRATIVE CONTROLS
Reimbursable Agreements
Budget Cycle
Recommendation
Third Party Draft System
Recommendations
Procurement
Recommendations
Property Management
Recommendations
Accounting
Recommendation
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS
APPENDIX I - SCHEDULE OF DOLLAR-RELATED FINDINGS
APPENDIX II - SCOPE AND METHODOLOGY
APPENDIX III - LISTING OF NDIC REIMBURSABLE
AGREEMENTS, FY 1995
APPENDIX IV - FUNDS OBLIGATED BY NDIC FOR
PARTICIPATING AGENCIES, FY 1995
APPENDIX V - OTHER MATTERS
APPENDIX VI - NDIC COMMENTS ON THE AUDIT
RECOMMENDATIONS
APPENDIX VII - OFFICE OF THE INSPECTOR GENERAL,
AUDIT DIVISION ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT
AUDIT RESULTS
The Office of the Inspector General, Audit Division, has completed an audit of the
controls over financial activities at the National Drug Intelligence Center (NDIC). The
audit was performed at the request of the NDIC through the Office of the Deputy Attorney
General.
With regard to the funding administered by the Department of Justice (DOJ), our audit
disclosed that NDIC had established adequate controls to perform its financial
responsibilities; however, the processes were not always economical or efficient. We
identified opportunities for the NDIC to enhance operations through organizational change
and operational improvements. Enactment of recommendations could result in the NDIC
utilizing $5 million, which remains available, but unused, and taking greater control over
its operations by improving its processes. Among the issues noted were:
The process NDIC used to reimburse agencies under interagency agreements was cumbersome.
There was also an associated cost for the support service provided to NDIC by the Federal
Bureau of Investigation (FBI).
Controls over disbursement activity at NDIC were weakened by a process which allowed the
cashier to print draft payments and also sign them.
Procurement activity for NDIC was performed by two separate divisions rather than one.
The NDIC had not established a central receiving point for goods and services it
procured.
The NDIC had not developed and implemented a documented set of accounting procedures and
instructions to ensure consistent processing of financial information.
The details of our work are contained in the Findings and Recommendations section of
the report.
INTRODUCTION
The purpose of our review was to determine whether the NDIC established and maintained
adequate financial and administrative controls for DOJ controlled activities.1 Our audit objective was to identify and assess the processes
involved with each of NDIC's principal financial cycles and functions. To do so, we
reviewed selected FY 1995 and 1996 expenditures, but focused on FY 1995, the
only complete year of financial activity available at the time of our review. Accordingly,
our review was directed at, but was not limited to, this timeframe.2
We conducted our fieldwork at the NDIC facility in Johnstown, PA.
Congress established the NDIC as a federal multi-agency organization.3 It acts as a central entity to collect, consolidate, and coordinate
drug intelligence beyond the capability of any single agency. The NDIC defined its mission
as providing strategic organizational intelligence analyses to law enforcement entities,
intelligence communities, and national policy makers; promoting information-sharing among
these entities; and promoting compatibility standards for drug intelligence information
collection systems.
The FY 1991 Department of Defense (DOD) Appropriations Act provided for initial funding
of the NDIC, and the FY 1992 DOD Appropriations Act included a provision assigning
responsibility for executive management of NDIC to the Attorney General. Funding for NDIC
was provided to DOJ from funds appropriated to DOD. From FY 1991 to FY 1996, DOD provided
approximately $134 million to DOJ, as follows:
(Amounts in millions)
FY
1991
1992
1993
1994
1995
1996
Total
Amount
$10
$40
$04
$10
$39
$35
$134
As of September 1996, NDIC had 228 federal employees and 100 contract employees
on-board to assist in its mission.
FINDINGS AND RECOMMENDATIONS
FINANCIAL AND ADMINISTRATIVE
CONTROLS
NDIC controls over its financial operations were adequate but need improvement to
promote more economical and efficient operations. This is due to funding and
administrative constraints under which NDIC operated. The NDIC has opportunities to
enhance financial and administrative systems through organization and operational
improvements and to put $5 million of funds to better use.
The NDIC conducts financial activities from its facility in Johnstown, PA. There are
two office sections in the NDIC involved with financial cycles and functions. The Finance
Branch is staffed predominantly by FBI and NDIC employees and controls expenditures
designated in the interagency agreement for the FBI. The Technical Support Division is
staffed with employees detailed from the Defense Intelligence Agency and controls
expenditures of funds retained by the DOD Intelligence Systems Support Office located in
Arlington, VA.
During the period of our review, the funds transferred to the FBI were used
predominantly for salaries, benefits, rent, supplies, transfers, and to fund reimbursable
agreements with participating agencies. The funds available for expenditure by the
Technical Support Division were used extensively for computer equipment, software, and
salaries of Defense Intelligence Agency employees assigned to NDIC. The Finance Branch was
responsible for reporting the total funding appropriated to support the NDIC, regardless
who expended the funds. In our judgment, the dual framework did not provide for unified
financial activities because activities were performed based on participating agency
affiliation and control of the appropriated funding, as opposed to financial cycle and
function.
To assess the impact of this process, we reviewed NDIC's principal financial cycles and
functions, defined by NDIC as: (1) reimbursable agreements, (2) budget, (3)
third party drafts, (4) procurement, (5) property management, and
(6) accounting.5 We discussed the results of our review,
including the recommendations, with NDIC officials during the course of the audit. During
our discussions with them thereafter, they offered corrective actions and responses to the
reported issues and suggested audit recommendations. We included that information in this
report.
A. Reimbursable Agreements
Interagency agreements provide the mechanism for NDIC to reimburse participating
agencies for personnel and associated costs of individuals assigned to NDIC. As part of
its efforts with the NDIC, the FBI provides administrative support to the NDIC, inclusive
of paying the bills submitted by participating agencies. The FBI was reimbursed via an
interagency agreement with NDIC for the cost of the support services it provides.
Each participating agency paid the salaries and related costs of its NDIC assigned
personnel and sent quarterly billings for reimbursement to the FBI. For FY 1995 the
NDIC obligated $4.2 million to reimburse participating agencies, other than the FBI, for
their assistance.6 The FBI billed DOD on a quarterly basis to
obtain reimbursement for NDIC activities by participating agencies.
The FBI forwarded the bills of participating agencies to the NDIC for review prior to
FBI payment. The Finance Branch, NDIC reviewed the bills and verified that the billed
employee positions were authorized, filled, and actually on board at NDIC during the
billing period. Upon NDIC certification, the FBI reimbursed the participating agencies. We
found no material deficiencies in the process used by, and under the control of, the NDIC
to review the submitted billings.
For FYs 1992 through 1995, the FBI received approximately $1.9 million for administrative
support provided to NDIC. Prior to our review, DOJ was considering organizational and
operational changes to the NDIC. At the time of our review, the NDIC was led by an Acting
Director. Subsequent to our fieldwork, DOJ named a permanent Director for NDIC. DOJ
management now has the opportunity to revisit the FBI-NDIC support arrangement to
determine the best course of action to benefit the operation of the NDIC.
B. Budget Cycle
The NDIC does not receive its funding directly from Congress; it flows from Congress,
through DOD, then to DOJ. The majority of the annual Congressional appropriation is
transferred from DOD to the FBI using an interagency agreement.
The FBI makes the funding available to NDIC through a separate account established on its
Financial Management System administered and operated at FBI Headquarters. The remaining
balance of the appropriation is retained by DOD's Intelligence Systems Support Office.
The specific amount to be administered by DOD and DOJ is determined each fiscal year
through a financial plan approved by NDIC and documented formally by an interagency
agreement. The interagency agreement is negotiated annually and signed by NDIC, the FBI,
and DOD's Intelligence Systems Support Office. During FY 1995, the interagency
agreement provided for the Finance Branch, NDIC to administer approximately $26 million of
the $39 million NDIC appropriation, and for DOD's Intelligence Systems Support Office to
administer the remaining $13 million through its agency representative at NDIC, the
Technical Support Division.
The NDIC conducts its budget formulation and request process through DOD, yet NDIC's
financial operations are more closely aligned with the FBI. The Finance Branch and
Technical Support Division develop their respective budgets based on past years'
activities and operations. The Chief Financial Officer (CFO) combines these two budgets,
which become the overall proposed budget for NDIC that is submitted to DOD's Intelligence
Systems Support Office for review. Once the budget is finalized, it is used as the basis
to prepare the interagency agreement.
The FBI allots funds in its Financial Management System for NDIC to use based on the
interagency agreement. Pending approval of the interagency agreement, during past fiscal
years, the FBI has provided NDIC with funds in the beginning of each fiscal year to cover
NDIC's operating expenses until an interagency agreement was in place. Although the
preceding process is cumbersome and inefficient to NDIC operations, we found no internal
control weaknesses in it.
During our review of NDIC's budget cycle, the former NDIC CFO advised us that
$5 million, included in the FY 1995 appropriation to the Organized Crime Drug
Enforcement Task Force (OCDETF) Program, was allotted to the DOD for use in NDIC, but not
spent. The former CFO said that the $5 million apparently was designated in error to NDIC
for a classified program, and that the funds remained unused. We could not confirm the
purpose behind the appropriation, only that it existed as a DOD/NDIC line item in the
OCDETF budget.7 We contacted the OCDETF's budget officer to
determine the most current status of the $5 million.
As of September 1996, OCDETF had received no requests for expenditures against the $5
million. However, during the 4th quarter of FY 1995 OCDETF had obligated these no-year
funds to the FBI as the financial agent for the NDIC funds. According to the OCDETF's
budget officer, the $5 million represented a portion of an overall $39 million NDIC
request -- $34 million of which was appropriated to NDIC through DOD. The OCDETF's budget
officer stated that he was of the understanding that the $39 million for NDIC was for
construction costs, retrofitting, and setting up the facility in Johnstown, PA. However,
the reimbursable agreement between the FBI and OCDETF indicated that NDIC may use the $5
million as it deems appropriate.
The OCDETF budget officer confirmed that he discussed the status of these funds with
the former and current NDIC CFOs and the Controller, Justice Management Division, but no
action had occurred regarding the funds. Accordingly, the $5 million remained unused since
being approved in the FY 1995 budget. The NDIC CFO advised us that NDIC has developed a
definitive plan to utilize the entire $5 million by the end of FY 1998. This plan involves
the establishment of a Secure Video Tele-conferencing Center and creation of a Distance
Learning Program. A concept of operations has been developed and requirement documents
have been prepared. The NDIC needs to bring this matter to conclusion to avoid these funds
either remaining unutilized or being used for purposes other than intended.
Recommendation
We recommend that the Director, NDIC:
1. Take the necessary action to utilize, reprogram, or deobligate the $5 million
designated for NDIC in the FY 1995 OCDETF appropriation.
C. Third Party Draft System
We reviewed selected FY 1995 and FY 1996 third party drafts8
to verify the transactions to source documents, the approval signatures on the vouchers,
and the expenses to the accounting records. For the transactions reviewed, we noted no
deficiencies for the attributes tested. We also selected a judgmental sample of travel
advances from FY 1995 and FY 1996 to determine if the advances had been liquidated. The
NDIC did not maintain a list of outstanding travel advances; however, the system
automatically liquidated them when the travel voucher was processed. The traveler was
reimbursed the net amount of the travel reimbursement request less the advance.
The NDIC uses the Third Party Draft Program on the Financial Management System
accessible from the FBI's network system (FBI NET) to issue payments to commercial vendors
and to reimburse employee travel expenses. The NDIC is limited to issuing drafts not to
exceed $2,500. If the disbursement exceeds $2,500, it is forwarded to FBI Headquarters for
payment. This is due to the level of NDIC's procurement authority (see discussion under Procurement).
NDIC officials indicated that using FBI NET is a lengthy process and that the system
often is not accessible. (The system was not accessible three of the five days of the
first week of our review at NDIC.) When this occurred, users had to redial repeatedly,
sometimes to no avail. During the periods this system is not available to NDIC, they are
unable to print any drafts. Despite the problems experienced, at the time of our review, a
backlog of only two to three weeks existed for processing commercial vouchers and no
backlog existed for the travel vouchers.
During our review of third party drafts, we noted that the NDIC has the option of
adopting an FBI policy relating to financial operations because NDIC is a separate entity.
We found instances where the NDIC adopted FBI policy, possibly to the detriment of
internal controls or efficiency. Following are areas we identified that provide NDIC with
opportunities for improvements in the third party draft process.
Commercial Vouchers - Commercial vouchers are received by the approval officer
who verifies the invoices, and prepares the Draft Request, FD-794. Once approved, the
FD-794 is given to the cashier who prints the draft.9 The
cashiers are authorized to sign the drafts (regardless of whether the payment is a
commercial or a travel reimbursement). Although FBI procedures allow the same person to
prepare and to sign the drafts, we believe controls over the Third Party Draft System
would be enhanced if a separation of duties existed between these two functions. The
signature on the drafts should be that of the CFO, who is ultimately responsible for
NDIC's expenditures. In the absence of the CFO or next higher-level official, NDIC should
consider having a dual signature requirement for its disbursements. The NDIC CFO stated
that the Third Party Draft System utilized by NDIC is an FBI system and NDIC has
established and adhered to all internal controls mandated by the FBI.
Travel - All travel for individuals assigned to work at NDIC is reimbursed
through the Finance Branch, regardless of the participating agency affiliation. The NDIC
adopted the FBI policy that restricts travelers from using their government issued credit
cards to access automatic teller machines (ATMs) to obtain cash advances for travel. Other
DOJ components permit and encourage their employees to use ATMs for cash advances and
claim the charge for the transaction on travel vouchers. This reduces paperwork in the
component and establishes the liability between the traveler and the credit card company.
The NDIC should consider permitting its staff to use the credit cards for this purpose.
According to the CFO, all NDIC personnel are issued U. S. Government American Express
Cards from their parent agencies. Some agencies allow their employees to access ATM
machines for travel advances while some do not. The NDIC has contacted American Express
for information about establishing NDIC-issued American Express cards, over which NDIC
would exercise control. If this is accomplished, all NDIC personnel will be able to
receive advances using the credit card. The CFO advised us that NDIC has abolished the
practice of issuing travel advances through the Third Party Draft System.
Imprest Fund - The third party draft system was to be the alternative to the
existence of imprest funds. Yet, the NDIC is authorized by the FBI to maintain a $2,500 imprest fund: $1,500 in Johnstown; and $1,000 in the Washington
Liaison Office. We found that the NDIC maintains adequate security measures for the funds
($2,000 is maintained in fire-resistant metal cash boxes equipped with built in
combination locks, and $500 is in a bank account in Johnstown), and that it adheres to FBI
policy for the monthly audit of imprest funds. However, we question the need for the fund
based on the existence of the third party draft system.
As support for our position, we reviewed the May and October 1995 semiannual imprest
fund reports the NDIC issued to the FBI. There were only eight to nine transactions per
month from the Johnstown imprest fund and four to seven transactions from the Washington
Liaison Office imprest fund. We considered transactions to include funds disbursed but
excluded replenishments to the imprest funds. During post audit discussions with NDIC
officials, they concurred with our position and stated that they intended to abolish the
imprest fund.
Notwithstanding our judgment regarding abolishment of the imprest fund, we noted an
internal control weakness in the current process. The Johnstown imprest fund cashier
replenishes the funds monthly by cashing a draft made out to herself and depositing the
cash to the Johnstown imprest fund.
Recommendations
We recommend that the Director, NDIC:
2. Consider designating NDIC officials other than the cashiers to sign the drafts
prepared by the cashiers.
3. Complete action to allow employees to obtain travel advances using government-issued
credit cards at ATMs.
4. Eliminate the imprest fund.
D. Procurement
In order to review the NDIC controls over the procurement process, we reviewed a sample
of 28 purchases totaling $3,075,314 from a universe of 416 transactions totaling
$6,754,844 in FY 1995. We traced the 28 purchases to the required source documents and
verified approval signatures. Our assessment noted that for two FBI initiated purchase
orders and one VISA purchase appropriate supporting documentation, such as the purchase
order, purchase requisition, or invoice, was not on file at NDIC. Following is a table
listing the transactions reviewed by type, number and amount.
Procurement - FY 1995
Type of Purchase
Transactions
Amount
FY 1995
Reviewed
FY 1995
Reviewed
Telephone Approval (T-Number)
140
7
$ 146,732
$ 19,077
NDIC Initiated Purchase Order
117
7
429,432
53,913
FBI Initiated Purchase Order
92
7
6,153,383
2,996,876
VISA
67
7
25,297
5,448
Total
416
28
$6,754,844
$3,075,314
(Source: NDIC Procurement Log and files.)
The procurement process at NDIC is handled by both the Finance Branch and the Technical
Support Division, who have different methods of processing purchase orders, as described
below. However, the Finance Branch has the overall responsibility for approving,
coordinating and reporting all expenditures made on behalf of NDIC. The Finance Branch
relies on the FBI's Financial Management System procurement module, while the Technical
Support Division relies on the General Services Administration (GSA) to prepare and issue
purchase orders. NDIC officials indicated that a contractor is performing a personnel
staffing review at NDIC and will issue recommendations to NDIC management on streamlining
operations, including that of the procurement function. Notwithstanding the contractor's
review, following is a brief description of the procurement process.
Finance Branch Process - The accounting technician and the procurement
specialist in the Finance Branch had procurement authority up to $2,500. During the latter
part of FY 1995, the FBI granted the NDIC procurement authority to $10,000. The
authority was given specifically to the former CFO, a FBI supervisory special agent. The
authority was reduced to $2,500 in January 1996 when the former CFO was reassigned.
Purchases that exceeded the procurement authority were processed by FBI. This limited the
number of transactions that were processed by the Finance Branch. In turn, it increased
the number that was required to be handled by the FBI. NDIC officials advised us that NDIC
received approval from FBI Headquarters for the contract specialist to attend the next
available $10,000 procurement class. This will promote the establishment of procurement
authority up to $10,000.
Technical Support Division Process - The NDIC funds retained by DOD are expended
by the Technical Support Division. The Finance Branch has no control over the
expenditures, but is responsible for capturing and reporting on the NDIC accounting system
how all appropriated monies are spent. During FY 1995, it became the general practice of
the Technical Support Division to notify and seek approval from the Finance Branch prior
to entering into any procurement activity. The Technical Support Division provided the
Finance Branch with expenditure activity for items it purchased.
The Technical Support Division identifies automated systems requirements and performs
technical analyses for NDIC. Once the Technical Support Division identifies the
requirements and recommends the method or source of procurement, the Finance Branch
approves the purchase and determines whether the purchase should be handled by the
Technical Support Division. The Technical Support Division uses a division within GSA to
acquire the items or services. It is the general practice of the DOD's Intelligence
Systems Support Office to place funds with GSA, which then are available for use as
directed by the Technical Support Division at NDIC. Nearly all of the Technical Support
Division's procurements are for computer hardware or software. The expenditures made by
the Technical Support Division are incorporated with the overall NDIC expenditures and
accountable property inventory. These procedures were not integrated with the Finance
Branch procedures except for the approval process.
The Finance Branch is provided with the amount and line item number to document
procurement activity of the Technical Services Division. However, the final acquisition
price of the items was not always provided. The Technical Support Division maintained the Budget
Actions FY 96 book for information regarding procurements made for NDIC with DOD
controlled funds. The Technical Support Division had performed some reconciliations with
the Finance Branch accounting records, but they were not done on a regular basis. The
Technical Support Division intended to begin obtaining copies of the purchase orders it
issued from GSA, so the actual cost of the items could be determined. The Technical
Support Division planned to make this information available to the Finance Branch, once
initiated.
The FBI's Financial Management System did not provide the Finance Branch with the
capability to document all of its procurement activity; it documented only that portion
handled through the FBI. The decrease in the level of NDIC's procurement authority from
$10,000 to $2,500 caused more purchases to be processed by FBI Headquarters.
Recommendations
We recommend that the Director, NDIC:
5. Take actions necessary to reestablish the level of procurement authority to at least
$10,000 for the NDIC.
6. Consider consolidating, in one office, the procurement function now being performed
by the Finance Branch and the Technical Support Division.
E. Property Management
The Administration Division10 and the Technical Support
Division maintains separate and distinct, but often duplicative, inventories of property
and equipment. The Administration Division inventory includes all NDIC accountable
property; the Technical Support Division maintains a database inventory of computer
equipment and software, which it uses to augment its technical analyses and monitoring of
NDIC's advanced automation requirements.11 Even when the
Technical Support Division procured equipment with the DOD allocation of funds, the
Administration Division barcoded the items.
Although NDIC uses barcoding, it does not have centralized control for incoming
property, such as a designated central receiving area.12 Because
NDIC's procurement activity is fragmented and can be initiated by either the Finance
Branch or the Technical Support Division, there are different contact people depending on
who orders the items. The contact people receive the ordered items. The advantage of
establishing a designated receiving section within NDIC would be to separate the function
of the person ordering goods and services for the entity from being the same individual
authorized to receive and accept the items.
The equipment that is barcoded becomes a part of the inventory maintained by the
Administration Division. We consider this as NDIC's official property management
inventory. The Administration Division inventory is comprised of two modules: the
Integrated Inventory Management Application and the Configuration Management Property
Management unit. The Configuration Management Property Management database module was
created in 1993 and contains information on items barcoded from 1993 through November
1995. The newer Integrated Inventory Management Application database module was created in
November 1995 as a replacement for the older Configuration Management Property Management
database module. In August 1996 the Administration Division transferred active equipment
records from the older database into the newer database, after surplusing excess equipment
and reflecting the changes in the older database.
The Integrated Inventory Management Application database listing provided to us
identified 806 barcoded entries showing a total acquisition cost of $1,435,881. The
Configuration Management Property Management database listing provided to us identified
2,618 barcoded entries showing a total acquisition cost of $4,902,236. For purposes of
reviewing the inventory, we selected a judgmental sample of 75 items: 25 from the
Integrated Inventory Management Application database, 25 from the Configuration Management
Property Management database, and 25 from on-site accountable property to trace back to
the inventory lists.
Generally, not all of the items in the two databases had dollar values assigned to
them, thus the total cost of inventoried items identified may be understated on the
inventory listings. We located the 25 items selected from the Integrated Inventory
Management Application list and traced them to the records. However, we did not locate the
following four items included in the Configuration Management Property Management list.
ChipCom concentrator
Cordant 486 central processing unit (CPU)
Robotics modem
NEC Versa hard drive
The cost identified on the Configuration Management Property Management inventory
listing for the concentrator and the CPU was $3,441. The
Configuration Management Property Management listing did not include amounts for the modem
and the hard drive. NDIC management provided additional information on two of the missing
items:
The concentrator should not have been barcoded individually because it becomes part of
an overall unit when configured. The barcode and serial numbers are hidden inside the
overall unit, making it impossible to discern it without disassembling the operating unit.
Management believed that the hard drive was in a laptop computer which was scheduled to
be used out of the office, thus precluding verification of the item selected for review.
According to NDIC officials, one NDIC employee and one contractor employee were working
on property management. They conducted a property inventory of NDIC offices and are
reconciling that inventory. They will attempt to locate and account for the four items not
located during the audit.
Recommendations
We recommend that the Director, NDIC:
7. Establish a central receiving point, which is separate from the procurement
function, for all goods and services.
8. Remedy the reported discrepancies noted on the Configuration Management Property
Management inventory listing.
F. Accounting
Previously in this report, we indicated that we had to rely on verbal descriptions of
systems and control points to gain an understanding of the financial and administrative
processes at NDIC. As such, the NDIC needs to develop formal procedures to chronicle and
document policies and procedures involved in its operations. This would ensure continuity
of operations in the event of staff turnover. Following are issues that demonstrate the
need for such a formal document.
The accounting technician stated that she performed accounting and procurement duties
since September 1994. She expended approximately 50 percent of her time on each function,
even after a procurement specialist was hired. However, the accounting technician
indicated that she was the only NDIC employee with institutional knowledge of the
accounting system after the former CFO left the NDIC.She advised us that she had to
depend a great deal on the former CFO. The former CFO established the reimbursable
reports, opened the accounting books, and identified the split between DOD and DOJ funds.
Sometimes NDIC received verbal financial instructions directly from FBI Headquarters.
These affected NDIC accounting processes but were not institutionalized.
There were no formal, documented procedures for closing out the financial records at the
conclusion of the fiscal year or opening the books in preparation for the beginning of the
next fiscal year. The former CFO directed and oversaw the closeout of the FY 1995
records and opening of the FY 1996 records. The FY 1995 closeout was not
finalized until March 1996 due to the delay in coordinating and incorporating DOD
transactions into NDIC's accounting records and due to the departure of the former CFO in
January 1996. At the beginning of the fiscal year, the CFO gave the accounting technician
the amounts to post to each account based upon the approved budget.
During our audit the NDIC Finance Branch was reviewing all financial policies and
procedures. According to NDIC officials, after a new accounting system is selected, all
financial policies and procedures will be documented in a manual for use by NDIC
employees.
Recommendation
We recommend that the Director, NDIC:
9. Document the NDIC accounting system and procedures.
STATEMENT ON COMPLIANCE WITH
LAWS AND REGULATIONS
We have audited the internal controls implemented by NDIC for administering DOJ
controlled financial activities. This included a limited review of transactions occurring
during FY 1995 and 1996. In connection with our audit, we tested financial transactions
and records to obtain reasonable assurance about NDIC's compliance with laws and
regulations that, if not complied with, we believe could have a material effect on
financial operations.
We conducted our audit in accordance with generally accepted government auditing
standards. Those standards require planning and performing the audit to obtain reasonable
assurance about whether NDIC had, in all material respects, complied with the applicable
laws and regulations. An audit includes examining, on a test basis, evidence about NDIC's
compliance with laws and regulations. The specific laws and regulations against which we
conducted tests were 31 U.S.C. 3321; Treasury Financial Manual, Chapter 3000; and Manual
of Procedures and Instructions for Cashiers; the Federal Acquisition Regulation; the
Justice Property Management Regulations; and the Federal Travel Regulations.
The results of our tests indicate that for the items tested, NDIC complied with the
provisions of the laws and regulations referred to above except as indicated in the
FINDINGS AND RECOMMENDATIONS section of this report. With respect to the transactions not
tested, nothing came to our attention that caused us to believe NDIC was not in compliance
with the laws and regulations cited above.
1 Certain NDIC financial activities are controlled by DOD. We
did not review those activities, but to address DOJ's responsibility for reporting on
total NDIC funds, we obtained a general understanding of DOD processes.
2 See Appendix II for the scope of our review.
3 See Appendix III.
4 No-year funding from FY 1992 was spent in FY 1993.
5 Specific procedures for performing the majority of NDIC's
financial operations were not documented formally and incorporated into a procedures
manual; therefore, NDIC officials described the processes to us. Accordingly, we relied on
these descriptions of the processes in conducting our assessment and in performing our
transaction testing and analyses. We identified the impact of this on NDIC during our
review of the financial cycles (see Accounting section of this finding).
6 See Appendix IV for funding by participating agency.
7 THE BUDGET FOR FISCAL YEAR 1996, INTERAGENCY LAW
ENFORCEMENT, Federal Funds, Organized Crime Drug Enforcement, pages 640 and 641.
8 Third party drafts are an alternative to cash. A draft is a
negotiable instrument that does not require cash from the U.S. Treasury when issued. Funds
are provided, instead, by a third party, the contracting bank. U.S. Treasury funds are
disbursed when payment is made to the contracting bank.
9 This process is for vouchers up to $2,500 only. All other
vouchers require the approval of FBI Headquarters.
10 The Finance Branch, organizationally, falls under the NDIC
Administration Division, and handles the preponderance of NDIC's financial cycles and
functions; however, it is not involved with the property management and inventory
function. The responsibility for this function resides with a different sector of the
Administration Division.
11 At the end of our onsite review, NDIC had a committee
reviewing the combining of the two inventory systems maintained by the Administration
Division and the Technical Support Division.
12 We were advised that this issue is also being examined
during the personnel staffing review currently underway at NDIC.
#####